No. 19-

IN THE

Ouprente Court of tije littiteb ikateg
FORD MOTOR COMPANY,
Petitioner,
v.
ADAM BANDEMER,
Respondent.

On Petition for a Writ of Certiorari
to the Supreme Court of Minnesota

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
8,544 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 18, 2019.

Colin Casey IYogan
Wilson-Epes Printing Co., Inc.

